No. 19-863
IN THE

'upreini Court of the

btates

AUGUSTO NIZ-CHAVEZ,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit

BRIEF OF AMERICAN IMMIGRATION
LAWYERS ASSOCIATION, THE AMERICAN
IMMIGRATION COUNCIL AND LEGAL
SERVICES PROVIDERS AS AMICI CURIAE IN
SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the brief and appendix
contains 6,567 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 13, 2020.

/.4
Colin Casey llogan
Wilson-Epes Printing Co., Inc.

